IN THE
SUPREME_COUIiT_OEl-T-H-E—y-N-I-T-E-B-S-TATES'

DAN KENNY DELVA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
APPENDIX

A - G

Dan Kenny Delva, pro-se.
Reg. No. 10150-104
FCI Williamsburg
P.O. Box 340
Salters, SC 29590

IN THE
SUPREME COURT OF THE UNITED STATES

DAN KENNY DELVA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
APPENDIX

A - G

Dan Kenny Delva , pro-se.
Reg. No. 10150- 104
FCI Williamsburg
P.O. Box 340
Salters, SC 29590

APPENDIX A
Opinion of the U.S. Court of Appeals
\

t

/

- - _—OAN-KENNYUEUVA, Movant^Appellant, versus QNTTED'STATES'OF AMERICA'
Respondent-Appellee.
UNITED STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT
2021 U.S. App. LEXIS 8721
No. 20-10542 Non-Argument Calendar
March 25, 2021, Decided
Notice:
PLEASE REFER TO FEDERAL RULES OF APPELLATE PROCEDURE RULE 32.1 GOVERNING
THE CITATION TO UNPUBLISHED OPINIONS.
Editorial Information: Prior History
{2021 U.S. App. LEXIS 1}Appeal from the United States District Court for the Southern District of
Florida. D.C. Docket Nos. 0:20-cv-60106-WPD; 0:15-cr-60209-WPD-2.
Disposition:
AFFIRMED.
For DAN KENNY DELVA, Petitioner - Appellant: Dan Kenny Delva, FCI
Williamsburg - Inmate Legal Mail, SALTERS, SC.
For UNITED STATES OF AMERICA, Respondent - Appellee:
Brandy Brentari Galler, Emily M. Smachetti, U.S. Attorney's Office, MIAMI, FL; Andrea G.
Hoffman, U.S. Attorney Service - Southern District of Florida, U.S. Attorney Service - SFL,
MIAMI, FL.
Judges: Before MARTIN, NEWSOM and BRANCH, Circuit Judges.

Counsel

Opinion

PER CURIAM:
Dan Delva, proceeding pro se, appeals the district court's order denying his motion to vacate his
sentence and conviction under 28 U.S.C. § 2255. He raises four issues on appeal. First, Dglya
argues that his trial counsel was ineffective for failing to file a motion to sever his trial fromjhalothis
Kfntfjpr and cn-defendant. Bechir. Second, he asserts that his trial counsel was ineffective for failing
to file a motion to suppress evidence seized during a search of a residence and vehicle. ITiird, he
argues tfiaThis 84-month sentence Is unreasonable and that ms counsel was ineffective for failing to
object to his sentencing enhancement. Fourth,(2021 U.S. App. LEXIS 2} he asserts that his counsel
was ineffective for advising him to proceed to trial instead of pleading guilty in exchange for 24
months' imprisonment. For the reasons explained below, we affirm.
I
A
The underlying facts and procedural history of this case are thoroughly described in this Courts
previous opinion dealing with Delva's direct appeal, United States v. Delva, 922 F.3d 1228 (11th

CIRHOT

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

11022058

Cir. 2019). We will therefore only briefly describe the events relevant to Delva's § 2255 motion to
vacate,--------—------ ------------------------------------ —------------------------------------------------------------ -—
A Florida grand jury charged Delva and his brother Bechir with multiple counts related to an
identity-theft and tax-fraud scheme. Following an undercover operation targeting Delva and Bechir,
federal agents interviewed Bechir after giving him a Mirandd warning. During that interview, Bechir
told agents that (1) he had obtained all of the personal identifying information (Pll) of numerous
individuals found by law enforcement during the investigation; (2) he had used the Pll to file
fraudulent tax returns; (3) he would receive the tax refunds from the fraudulent returns on debit
cards; (4) firearms found during a search of a residence that Delva and Bechir were using to carry
out their activities belonged to Delva; and (5) the brothers kept the firearms for{2021 U.S. App.
LEXIS 3} their own protection. To avoid prejudicing Delva at trial, the government agreed to redact
Bechir's statement by removing any reference to Delva from the statement. At trial, before Bechir s
statements to law enforcement were introduced, Delva's counsel said he didn't have any objection to
the redaction.
Delva and Bechir were tried together. Prior to trial, there was a suppression hearing based on
Bechir's motion to suppress physical evidence that had been seized from Bechir's car, including
credit cards and the Pll of numerous individuals. The court concluded that there was sufficient
probable cause to search the car and denied the motion.
At trial, Bechir testified in his own defense. As relevant for our purposes, Bechir testified that (1) the
townhouse at which he and Delva were arrested didn't belong to either of them, but rather to an
out-of-town relative; (2) all of the Pll that the agents found belonged to a confidential informant that
police had used in the operation targeting him and Delva; (3) he and Delva didn't own any of the Pll;
and (4) Delva's firearms were purchased for recreational use at a shooting range, not to protect the
Pll or tax-fraud proceeds. Delva's counsel{2021 U.S. App. LEXIS 4} was offered the opportunity to
cross-examine Bechir but chose not to, while the government did cross-examine him. A jury found
Delva and Bechir guilty of all charges.
At the sentencing phase, the court adopted the recommendations of Delva's presentence
investigation report (PSI). The PSI recommended a 14-level sentencing enhancement pursuant to
U.S.S.G. § 2B1.1(b)(1)(H) because the total loss amount from Delva's crimes was between $550,000
and $1,500,000. The court adopted the PSI's loss-enhancement calculation, considered the 18
U.S.C.'§ 3553(a) factors and the guidelines, and sentenced Delva to a total of 84 months'
imprisonment.
This Court affirmed Delva's and Bechir's convictions and sentences on direct appeal. See United
States v. Delva. 922 F.3d 1228, 1257 (11th Cir. 2019).
B
Delva filed a motion to vacate his conviction pursuant to 28 U.S.C. § 2255, which the district court
denied. A member of this Court granted Delva a certificate of appealability on four issues:
1. Whether trial counsel was ineffective for failing to file a motion to sever Delva's trial from his
brother Bechir's trial;
2. Whether trial counsel was ineffective for failing to file a motion to suppress evidence seized
during a search of a vehicle and residence;
3. Whether Delva's 84-month sentence was unreasonable, and his trial counsel{2021 U.S. App.
LEXIS 5} was ineffective for failing to object to the sentencing enhancement for the loss amount;
and

CIRHOT

2

©2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

11022058

t

4. Whether trial counsel was ineffective for advising Delva to proceed to trial instead of pleading
guilty in exchange for 24-months’ imprisonment. 1
II
A
We'll begin with Delva's first ineffective-assistance-of-counsel claim. Delva argues that his counsel
was ineffective for failing to file a motion to sever his trial from Bechir's because Bechir made
statements to law enforcement officers directly implicating Delva in the tax-fraud scheme. In
connection with his ineffective-assistance claim, Delva also asserts that Bechir’s testimony violated
his Fifth and Sixth Amendment rights because Bruton v. United States, 391 U.S. 123, 88 S. Ct. 1620,
20 L. Ed. 2d 476 (1968), bars the admission of a co-defendant's confession inculpating the defendant
unless that co-defendant is subject to cross-examination.
To succeed on an ineffective-assistance claim, a defendant must show both that (1) his counsel's
performance was deficient, and (2) the deficient performance prejudiced his defense. Strickland v.
Washington, 466 U.S. 668, 687, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984). Under the first prong,
counsel is strongly presumed to have rendered adequate assistance and made all significant
decisions in the exercise of reasonable professional judgment. Id. at 690. Counsel's performance is
deficient{2021 U.S. App. LEXIS 6} only if it falls below the wide range of competence demanded of
attorneys in criminal cases. Id. at 687-89. As to the prejudice prong, the movant must show that there
is a reasonable probability that, but for counsel's unprofessional errors, the result of the proceeding
would have been different. Id. at 694. A "reasonable probability" has been defined as one sufficient
to undermine confidence in the outcome. Id. Further, ”[t]he likelihood of a different result must be
substantial, not just conceivable." Harrington v. Richter, 562 U.S. 86, 112, 131 S. Ct. 770, 178 L. Ed.
2d 624 (2011). Failure to establish either prong is fatal. Strickland, 466 U.S. at 697.
Here, Delva has failed to show that his counsel's performance fell below an objective standard of
reasonableness or that prejudice resulted from his counsel's actions such that the outcome of his trial
would have been different. Strickland, 466 U.S. at 694. First, on performance, to the extent that
Delva argues that his counsel was ineffective for failing to move to sever the trials because Bechir's
statement caused a Bruton violation, this argument fails. No Bruton violation arose even though
Bechir's unredacted statement was introduced at trial during Bechir's testimony because Delva's
counsel was offered the opportunity to cross-examine Bechir but chose not to do so. See Nelson v.
O'Neil, 402 U.S. 622, 627, 91 S. Ct. 1723, 29 L. Ed. 2d 222 (1971) ("The Constitutional U.S.
App. LEXIS 7} as construed in Bruton, in other words, is violated only where the out-of-court hearsay
statement is that of a declarant who is unavailable at the trial for 'full and effective’
cross-examination."); United States v. Clemons, 32 F.3d 1504, 1510 (11th Cir. 1994) (finding no
Bruton violation where a defendant had an opportunity to cross-examine a co-defendant).2
Second, on prejudice, Delva has failed to show a reasonable probability that, but for counsel's
alleged errors, the result of the proceeding would have been different. Strickland, 466 U.S. at 694.
Here, for a motion to sever to have succeeded, Delva's trial counsel would have had to overcome
the general presumption that defendants indicted together will be tried together, particularly in
conspiracy cases. United States v. Francis, 131 F.3d 1452, 1459 (11th Cir. 1997); United States v. *
Cassano, 132 F.3d 646, 651 (11th Cir. 1998). This would have required showing that Delva wouldn't
receive a fair trial without severance. Cassano, 132 F.3d at 651. It's unlikely that his trial counsel
would have been able to show that Delva wouldn't be able to receive a fair trial because the
government would have introduced the same evidence whether or not Bechir and Delva were tried
together. Even if the trials had been severed, the government likely would have called Bechir to

CIRHOT

3

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

11022058

testify, and the same testimony and evidence regarding Delva's ownership of the firearms likely
Wni||r|{9n71 II S App J FXIS-8}.havft.bp.en-introduced.-------------------------------------------------—B
Delva next claims that his trial counsel was ineffective for failing to move to suppress evidence
found during the search of a residence and vehicle. He argues that law enforcement used a
confidential source to gain access to the residence and that doing so violated his Fourth Amendment
rights because the officers did not first receive authorization for a recording that the confidential
informant took inside the residence that showed signs of tax-fraud activities and that was later used
as the basis for a search warrant for the residence.
Again, under Strickland, Delva has failed to show either deficient performance or prejudice. First,
counsel was not ineffective for failing to challenge the search of the residence because Delva had no
reasonable expectation of privacy in it. See Kimmelman v. Morrison, 477 U.S. 365, 375, 106 S. Ct.
2574, 91 L. Ed. 2d 305 (1986) ("Where defense counsel's failure to litigate a Fourth Amendment
claim competently is the principal allegation of ineffectiveness, the defendant must also prove that
his Fourth Amendment claim is meritorious[.]"). Bechir testified that the residence was not Delva's
but a relative's and that the confidential source was staying there. Because Delva had no reasonable
expectation of privacy in someone else's home, he could not successfully{2021 U.S. App. LEXIS 9}
challenge the search of the residence. Minnesota v. Carter, 525 U.S. 83, 90, 119 S. Ct. 469, 142 L.
Ed. 2d 373 (1998) ('Thus, an overnight guest in a home may claim the protection of the Fourth
Amendment, but one who is merely present with the consent of the householder may not.”).
Second, counsel was not deficient for not challenging the search of the vehicle. As Delva admitted in
his original § 2255 motion, the court denied his co-defendant Bechir's motion to suppress evidence
obtained from the vehicle, determining that officers had probable cause to search it. Delva's counsel
could not have been ineffective for failing to file a motion to suppress evidence when his
co-defendant's counsel's motion challenging the same search was determined to be meritless, and,
for the same reason, there is no reasonable probability that, in the absence of the alleged error, the
result would have been different.
Consequently, Delva hasn't shown that his counsel's performance fell below an objective standard of
reasonableness or that there was a substantial probability that a motion to suppress the evidence
obtained from either the residence or vehicle would have been granted.
C
Next, Delva argues that his total 84-month sentence is procedurally and substantively unreasonable
and that his counsel was{2021 U.S. App. LEXIS 10} ineffective because he failed to object to a
14-level enhancement pursuant to U.S.S.G. § 2B1.1(b)(1)(H). He also contends that when the district
court enhanced his sentence on the ground that a weapon was found in the residence, it violated his
constitutional right to have a jury determine all facts essential to his sentence.
As an initial matter, Delva's challenge to his 84-month sentence isn't cognizable on collateral review.
Section 2255 does not provide a remedy for every alleged sentencing error. Spencer v. United
States, 773 F.3d 1132, 1138 (11th Cir. 2014). When a movant claims that his "sentence was
imposed in violation of the Constitution or laws of the United States ... or is otherwise subject to
collateral attack," 28 U.S.C. § 2255(a), he must show that the alleged error "constituted a
fundamental defect which inherently results in a complete miscarriage of justice," United States v.
Addonizio, 442 U.S. 178, 185, 99 S. Ct. 2235, 60 L. Ed. 2d 805 (1979) (quotation marks omitted).
Here, Delva has failed to allege an error other than a guidelines miscalculation, which is not an error
resulting in a "complete miscarriage of justice." Spencer, 773 F.3d at 1139 (noting that "[a] prisoner

CIRHOT

4

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

1 10220.

may challenge a sentencing error as a 'fundamental defect' on collateral review when he can prove
has been vacated").{2021 U.S. App. LEXIS 11}
Moreover, Delva's counsel was not ineffective for failing to object to the loss amount that led to his
sentencing enhancement. Delva can't show a substantial probability that an objection to the
sentencing enhancement for the loss amount would have been successful. Harrington, 562 U.S. at
111-12. The government produced evidence that Delva received $186,997 from fraudulent tax
returns and that Delva possessed the social security numbers of 1,656 other individuals. In cases
involving "unauthorized access devices" such as social security numbers, the commentary to the
guidelines says that the loss amount calculated shall be not less than $500 per access device.
U.S.S.G. § 2B1.1 cmt. n.3(F)(i).3 Therefore, the loss amount for the social security numbers was
calculated to be $828,000, bringing the total loss amount, along with the $186,997 from fraudulent
tax returns, to $1,014,697. That loss amount fell well within the range for the § 2B1.1(b)(1)(H)
enhancement. Delva has failed to explain how that loss amount was incorrectly calculated, such that
his attorney should have objected or that such an objection would have been successful.
Finally, to the extent that Delva challenges the firearm-possession enhancement to his sentence, this
Court can't review the claim{2021 U.S. App. LEXIS 12} because it is beyond the issues specified in
the certificate of appealability granted by this Court. See Murray v. United States, 145 F.3d 1249,
1251 (11th Cir. 1998) (holding that the scope of review in a § 2255 motion is limited to the issues
specified in the certificate of appealability).
D
Finally, Delva claims that his counsel was ineffective for advising him to go to trial instead of
accepting a plea agreement for a 24-month sentence. He argues that the counsel advised him to go
to trial because his brother would testify that he had nothing to do with the crime and, more
generally, that his counsel pushed him into going to trial.
To establish the prejudice prong of the Strickland test for ineffective assistance of counsel for the
allegedly improvident rejection of a guilty plea, the movant must show that (1) but for the ineffective
advice of counsel, there is a reasonable probability that the plea offer would have been presented to
the court; (2) the court would have accepted its terms; and (3) that the conviction or sentence, or
both, under the offer's terms would have been less severe than under the judgment and sentence
that in fact were imposed. Laflerv. Cooper, 566 U.S. 156, 164, 132 S. Ct. 1376, 182 L. Ed. 2d 398
(2012). A defendant's "wholly speculative” claims about what might have happened are insufficient to
satisfy{2021 U.S. App. LEXIS 13} Lafler's three-pronged test. See Osley v. United States, 751 F.3d
1214, 1225 (11th Cir. 2014) (rejecting § 2255 movant’s argument on Lafler's second prong because
his counterfactual claim was "wholly speculative"); id. at 1224 ("Osley's declaration that his plea deal
would have resulted in a fifteen-year sentence is wholly speculative since it is unclear what plea
terms the prosecution would have offered . . .."). Conclusory allegations unsupported by specifics
regarding ineffective-assistance-of-counsel claims are insufficient to warrant § 2255 relief. Rosin v.
United States, 786 F.3d 873, 879 (11th Cir. 2015) (rejecting a movant's "conclusory assertion" that .
his failure to accept a guilty plea and his insistence on going to trial were caused by his trial counsel's
ineffective assistance).
Here, Delva's allegations about the supposed plea deal were conclusory because they did not (1)
state when the plea deal was offered, (2) allege that the court would have accepted the plea deal,
and (3) assert what the exact terms of the plea deal would have been. Consequently, Delva failed to
show prejudice for this claim, as he did not show that there was a reasonable probability that the
court would have accepted his plea deal. See Strickland, 466 U.S. at 694.

CIRHOT

5

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

11022058

Ill
To recap-we affirm the district court's denial of Delva's § 2255 motion because (1) Delva's counsel
was{2021 U.S. App. LEXIS 14} not ineffective for failing to move to sever his trial from that of his
co-defendant's; (2) Delva's counsel was not ineffective for failing to move to suppress evidence from
the search of the residence or vehicle; (3) Delva can't collaterally challenge his sentence in his §
2255 motion and his trial counsel wasn't ineffective for failing to object to the 14-level sentencing
enhancement; and (4) Delva can't show that his counsel's advice led to the improvident rejection of a
guilty plea. Accordingly, we affirm.
AFFIRMED.
Footnotes

1
For § 2255 proceedings, we review a district court's legal conclusions de novo and its factual findings
for clear error. Rhode v. United States, 583 F.3d 1289, 1290 (11th Cir. 2009). Pro se pleadings are
held to a less stringent standard than counseled pleadings and, consequently, must be construed
liberally. Tannenbaum v. United States, 148 F.3d 1262, 1263 (11th Cir. 1998).
2
Delva also argues in his reply brief that his trial counsel was ineffective for failing to object to
Bechir's testimony at trial. However, our review is "limited to the issues specified in the [certificate of
appealability]." Murray v. United States, 145 F.3d 1249, 1251 (11th Cir. 1998). We cannot consider
Delva’s claim that his trial counsel was ineffective for failing to object to Bechir's testimony at trial
because it was not an issue specified in the certificate of appealability.
3
An "access device" is "any card, plate, code, account number, electronic serial number, mobile
identification number, personal identification number, or other telecommunications service,
equipment, or instrument identifier, or other means of account access that can be used ... to obtain
money, goods, services, or any other thing of value[.]" 18 U.S.C. § 1029(e)(1).

CIRHOT

6

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

11022058

APPENDIX B
Opinion of U.S. District Court

\

i

t

UNITED STATES DISTRICT COURT
~S'0'UTHERN-DTSTRTCTT>'FTU0RID7C
DAN KENNY DELVA,

CASE NO. 20-60106-CIV-DIMITROULEAS
(15-60209-CR-DIMITROULEAS)

Movant,
vs.

UNITED STATES OF AMERICA,
Respondent.
FINAL JUDGMENT AND ORDER DENYING MOTION TO VACATE
THIS CAUSE is before the Court on Movant Dan Kenny Delva’s January 12, 2020,
Motion to Vacate and his unsworn1 Memorandum [DE-1], The Court has considered the Court
file and Pre-Sentence Investigation Report (PSIR), and having presided over the trial of this
cause, finds as follows:
1. On August 27, 2015, Dan Kenny Delva was charged by Indictment, along with
his brother, Becher Delva, with Conspiracy to possess Fifteen (15) or More Unauthorized Access
Devices, Possession of Fifteen (15) or more Unauthorized Access Devices and five (5) counts of
Aggravated Identity Theft. [CR-DE-3].
2. Dan Kenny Delva was arrested on November 16, 2015. [CR-DE-34], [CRDE-111, p. 5],
3. On January 21, 2016, Co-Defendant Bechir Delva filed a Motion to Suppress
evidence found in a vehicle. [CR-DE-60]. It was denied on January 28, 2016. [CR-DE-67],

l

The facts are contained in an unsworn memorandum. Normally, the court would give Delva an opportunity to
swear to the facts, but given the futility of doing so, the court will proceed with an assumption that Delva would
swear to the facts.

1

4. After a five (5) day jury trial, both defendants were found guilty of all seven
(7) counts. [CR-DE-97].
5. On September 11, 2016, Dan Kenny Delva was sentenced to 84 months in
prison. [CR-DE-119],
6. On April 29, 2019, the Eleventh Circuit Court of Appeals affirmed. [CR-DE191]. U.S. v. Delva, 922 F. 3d 1228 (11th Cir. 2019). The appellate court found that Dan Kenny
Delva had not demonstrated that his 84 month sentence was substantially unreasonable.
7. In this timely collateral attack, Dan Kenny Delva complains that counsel was
ineffective in not filing a motion for severance and in not filing a motion to suppress. Ele also
complains that his 84 month sentence was unreasonable. Finally, he contends that he was
offered a 24 month sentence through counsel.
8. First, Dan Kenny Delva complains that a severance should have been
requested. He contends that his brother’s statement incriminated him and that he could not call
his bother as a witness in the joint trial. This allegation is somewhat confusing; Bechir Delva’s
statement was supposedly inculpatory, but Dan Kenny Delva still wanted to call him as a
witness. First, the Government agreed to redact the statement of Bechir Delva, and Dan Kenny
Delva’s defense counsel agreed with that procedure. [CR-DE-149, pp. 4-5]. Therefore, there
was no reason to request a severance. Moreover, strategically, defense counsel realized that the
Government could introduce the same evidence through another witness. Therefore, there was
no basis to sever the trials. Finally, Bechir Delva testified and was subject to cross examination
by Dan Kenny Delva’s counsel, but there was no need to question him, as he testified that he, not
Dan Kenny Delva, brought gun to the apartment. [CR-DE-151, p. 65]. Second, Bechir Delva
did testify; so there was no reason to sever the trials to obtain Bechir Delva’s testimony. Bechir

2

.»

'*■

Delva explained his prior statement by saying that the police told him what to say. [CR-DE-151,
pp. 22-23]. Again, there was no reason to file a motion to sever. In his trial testimony, Bechir
Delva exculpated his brother and inculpated McKenzie Francois [CR-DE-151, pp. 38-41], There
was no prejudice to Dan Kenny Delva because he could have cross-examined Bechir Delva [DE151, pp. 23, 97], No error has been shown. See, Houston v. U.S., 2014 WL 585025*7 (M.D.
Fla. 2017).
9. Second, Kenny Delva does not explain how a motion to suppress the search
warrant would have been successful. See Thompson s. Battaglia, 458 F. 3d 614, 620 (7th Cir.
2006) cert, denied, 549 U.S. 1229(2007). It was not Dan Kenny Delva’s house. [CR-DE-151,
pp. 59, 88], It was based on a search warrant, and a good faith exception to the Fourth
Amendment is hard to overcome. Moreover, a law enforcement agent’s warrantless use of a
concealed audio-video device in a home into which he/she has been invited does not violate the
Fourth Amendment. U.S. v. Wahchumwah, 710 F. 3d 868 (9th Cir. 2013); U. S. v. Thompson,
811 F. 3d 944, 949 (7th Cir. 2016). No prejudice has been shown. Moreover, Jan Smith is an
experienced federal public defender, and the presumption that his conduct was reasonable is even
stronger. Chandler v. U.S., 218 F. 3d 1305, 1316 (11th Cir. 2000).
10. Third, matters addressed on direct appeal should not be relitigated on a collateral
attack. See Stoufflet v. U.S., 757 F. 3d 1236, 1239 (11th Cir. 2014). As the Eleventh Circuit
indicated, 84 months was a reasonable sentence. Dan Kenny Delva also complains about the
guideline enhancement for loss. He does not explain how an objection would have changed the
calculations. The PSIR accurately reflects that the IRS paid out $186,697 in fraudulent tax
returns. [CR-DE-111, p. 5], Moreover, 1656 social security numbers were seized, at a rate of

3

$500.00 per personal identification number, the intended loss was $828,000, for a total loss
amount of $1,014,697. [CR-DE-111, p. 6]. No objection would have been sustained.
11. Fourth, contrary to Delva’s contention, defense counsel cannot offer a 24 month
sentence. It is possible, but highly unlikely, that the Government could have offered a plea to
only one count of Aggravated Identify Theft, and no other counts. However, Delva’s conclusory
allegation does not merit any relief. Advice, although appearing incorrect in retrospect, does not _
rise to the level of ineffective assistance of counsel. Mostowicz v. U.S., 625 Fed. Appx. 489, 494
(11th Cir. 2015).
Wherefore, Delva’s Motion to Vacate [DE-1] is Denied.
The Clerk shall close this case and deny any pending motions as Moot.
The request for an evidentiary hearing is Denied.
DONE AND ORDERED in Chambers at Fort Lauderdale, Broward County, Florida, this
21st day of January, 2020.

1

/

U/

jCiMn/~CZy/'\!

f
i\ t /j

LLIAM P. DIMITROULEAS
United States District Judge

Copies furnished to:
Dan Kenny Delva, #10150-104
c/o FCI Williamsburg
PO Box 340
Salters, SC 29590
Maurice A. Johnson, AUSA

4

/

APPENDIX C
Order of Rehearing En Banc Per Curiam

UNITED STATES COURT OF APPEALS
----- FORTHEELEVENTH-CIRCUIT----ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal 1 .uscourts.gov

David J. Smith
Clerk of Court

June 30, 2021
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 20-10542-GG
Case Style: Dan Delva v. USA
District Court Docket No: 0:20-cv-60106-WPD
Secondary Case Number: 0:15-cr-60209-WPD-2
The enclosed order has been entered on petition(s) for rehearing.
See Rule 41, Federal Rules of Appellate Procedure, and Eleventh Circuit Rule 41-1 for
information regarding issuance and stay of mandate.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Joseph Caruso, GG/lt
Phone#: (404) 335-6177
REHG-1 Ltr Order Petition Rehearing

USCA11 Case: 20-10542
i

Date Filed: 06/30/2021

Page: 1 of 1

j.

FOR THE ELEVENTH CIRCUIT
No. 20-10542-GG

DAN KENNY DELVA,
Petitioner - Appellant,
versus
UNITED STATES OF AMERICA,
Respondent - Appellee.
Appeal from the United States District Court
for the Southern District of Florida
ON PETITIONfSI FOR REHEARING AND PETITIONfSl FOR REHEARING EN BANC
BEFORE: MARTIN, NEWSOM, and BRANCH, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

ORD-42

APPENDIX D
Extension of Time Granted

UNITED STATES COURT OF APPEALS
-—FOR-THE ELEVEN IH ClKC U11
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal 1 uscourts.gov

David J. Smith
Clerk of Court

April 16, 2021
Dan Kenny Delva
FCI Williamsburg - Inmate Legal Mail
8301 HWY 521
PO BOX 340
SALTERS, SC 29590
Appeal Number: 20-10542-GG
Case Style: Dan Delva v. USA
District Court Docket No: 0:20-cv-60106-WPD
Secondary Case Number: 0:15-cr-60209-WPD-2
The following action has been taken in the referenced case:
Your motion for extension of time, up to and including May 10, 2021, to file a request for
rehearing is granted.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Joseph Caruso, GG
Phone #: (404) 335-6177
EXT-1 Extension of time

APPENDIX E
Petition for Rehearing

Additional material
from this filing is
available in the
Clerk's Office.

